                           National Archives and Records Administration
                                                                                                   8601 Adelphi Road
                                                                                  College Park, Maryland 20740-6001


   Date         January 28, 2010
   Reply to
  Attn of       Office of Inspector General (OIG)

  Subject       Advisory Report No.1 0-03, Search Engine Analysis for Online Public Access to the
                Electronic Records Archives

  To            David Ferriero, Archivist of the United States (N)

                The selection process for choosing the search engine to provide public access to the
                Electronic Records Archives (ERA) was inadequate. An OIG review identified that ERA
                program officials did not independently test or analyze the search engine prior to its
                selection. Instead, NARA relied exclusively on the recommendation of Lockheed Martin
                (LM) Corporation staff. NARA ERA program officials could not provide OIG auditors with
                sound and transparent documentation to validate the selection ofVivisimo as the search
                engine for the largest IT project ever undertaken by this agency, and one that will impact all
               NARA stakeholders for the foreseeable future. NARA's IT Architecture Systems
               Development Guidelines require that after evaluating commercial off-the shelf products, the
               findings must be documented and justification for any particular item in the recommendation
               process must be made. In this case, NARA accepted LM's selection ofVivisimol to the
               exclusion of other vendors and search engines based upon incomplete analysis, and devoid of
               actual ERA technical staff hands-on testing. Thus, the selection process was flawed and the
               impact upon future deployment of the ERA is unknown.

              At a key decision point in the development of the ERA System, the public access search
              engine was selected without any documentation prepared by the NARA ERA Program Office
              to indicate who made the decision or the rationale used for the selection. According to the
              Director of ERA's Systems Engineering Division, in March 2009 LM was tasked with
              researching and.analyzing commercial search engine products and making a recommendation
              toNARA.

              OIG auditors sought documentation defining the basis for the selection ofVivisimo.
              Responsible ERA Program officials referred to a trade study of search engines prepared by
              LM in 2007. We reviewed this study and identified that Vivisimo was not included in the
              deliverable as a potential search engine candidate. The OIG staff was also provided a copy
              of a 2009 trade report crafted by Gartner Inc. which identified leaders in the search-engine
              field. In 2009, per the ERA Systems Engineering Director, LM brought in 10 to 12 vendors
              who provided demonstrations, some of which were reportedly attended by NARA ERA
              program staff but not the Systems Engineering Director or Program Director. After the
              demonstrations, the list of potential vendors was narrowed to three. Then, LM developed a

I LM is defined as the selecting entity of Vivisimo as no documentation was provided to indicate when or in what
manner NARA ratified the selection.
  list of questions for these three vendors that contained weighted criteria areas such as vendor
  viability and product functionality (See Attachment A for a description of the criteria areas
  and the assigned weights for each). Subsequently, LM selected one ofthe three vendors,
  Vivisimo. The Director told us that he is not aware of anyone at NARA expressing concerns
  with the selected vendor, and that his engineering staff talked with the vendor to clarify
  technical questions and to obtain a demo license. However, to reiterate, at the' point of
  selection no evidence exists that ERA technical staff had actually tested Vivisimo to assess
  functionality and capacity specific to unique ERA requirements.

  In August 2009, after ERA staff had reportedly validated LM's selection ofVivisimo we
  attended a demonstration at LM's facility in Greenbelt Md. LM officials responsible for the
  selection ofVivisimo presented an overview ofVivisimo search capabilities. We requested a
  demonstration ofthe actual testing that had been performed on NARA records encompassing
 those of the Revolutionary War that LM had reportedly ingested into the test bed. Keyword
 text searches we requested such as "Boston Tea Party", "Boston" and "George Washington"
 came back with no results. Thus the demonstrated ability ofVivisimo to function with
 sample ERA-like data failed. The LM official subsequently attributed this condition to the
 fact that he had just ingested the sample data into the system the night before and had not
 attempted to conduct queries such as the one we requested prior to the demonstration.
 Notwithstanding this fact, Vivisimo had already been recommended to the exclusion of other
 search engines by these very engineers.

 OIG auditors asked the ERA Systems Engineering Director what internal documentation 

there was to support the search engine analysis and selection; he stated there may be some 

minutes of meetings with LM and an e-mail message notifying LM of the search engine 

selection. To date these minutes have not been produced and provided to OIG staff. Due to 

the fact the demonstration searches did not yield any results, we asked ERA officials what 

independent analysis, if any, they performed on the selected search engine. The ERA 

Systems Engineering Director told us he had a copy of the search engine which he reviewed 

for functionality, but had not tested it using actual ERA data. 


 On January 12, 2010 we met with Director of the ERA Program and the ERA Systems
 Engineering Director to determine if any further analysis of the selected search engine was
performed after the demonstration we attended in August 2009. The ERA Systems
Engineering Director stated no further testing or analysis was conducted due to lack of
resources and his belief the selection of the ERA search engine was a responsibility assigned
to LM under their contract and he had no standing in this regard. He further identified that a
scenario under which NARA would have to move to a different search engine would likely
be costly and technologically difficult. In our opinion, ERA officials should have exercised
due diligence over the selection of this important system component by independently
conducting their own tests and analyses prior to its selection, and not relying solely on the
contractor's analysis. The rational for not doing so based upon inadequate internal ERA
staffing and resources for a project of this scope is troubling.

As previously stated, according to NARA's IT Architecture Systems Development
Guidelines, after evaluating commercial off-the-shelf products the recommendation process



                                           2

           should docum.ent the findings of the evaluation and provide the justification for a particular
           item. Of critical importance in the recommendation is to relate any intangibles that are not
           reflected in the assessment criteria. The final document should include the following:

               • 	 Executive summarybriefly describing process, recommended product, and reason for
                    recommendation;
               • 	 Additional changes to business processes and system architecture caused by
                    recommended product;
               • 	 Summary analysis of each product with pros and cons;
               • 	 .Product recommendation and justification; and
               • 	 Documented product and vendor evaluations.

          Decisions involving key components of the ERA System, such as the search engine for
          online public access, should, be formally approved and documented by senior NARA
          officials. The risk of not operating within these parameters is unnecessary and unwarranted.

          It should be reemphasized this review is limited to the process initially used in selecting the
          ERA search engine. This review does not cover whether or not the best search engine for
          NARA's needs was chosen. We make no statements about the capabilities of the search
          engine, and specifically have not evaluated the Vivisimo product. It is our understanding that
          NARA and LM officials continue efforts to develop the ERA search engine. LM reported
          that successful prototype demonstrations 2 of the search engine were conducted in November
          and December 2009.

         A beta release of the Online Public Access Instance, planned for March 2010, will include
         access to the Access to Archival Database (AAD) and the Archival Research Catalogue
         (ARC) assets. This beta release will be open to a limited number of users for evaluation.
         Online access to the public is planned for the fourth quarter of FY 2010, with access to AAD
         and ARC assets, as well as other holdings.

         We will continue to monitor the development ofthe ERA search engine and report back to
         you on a periodic basis.

         This project was part of our on-going effort to review NARA's development and
         implementation of the ERA. Our review effort consisted primarily of reviewing applicable
         ERA documentation such as the ERA FY 2010 Expenditure Plan, ERA Search Trade Study,
        Online Public Access for NARARequirements Document: Search Functionality, ERA
        contract and modifications, contractor status reports, Congressional status reports, and
        interviews with responsible ERA Program Office officials. We conducted this performance
        audit in accordance with generally accepted govemmentauditing standards. Those standards
        require that we plan and perform the audit to obtain sufficient, appropriate evidence to
        provide a reasonable basis for our findings and conclusions based on our audit objectives.



2 In the meeting January 12,2010 the OIG requested supporting documentation, however, none has been received to
date.



                                                         3

We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

If you have any questions concerning the infonnation presented in this report, please e-mail
Mr. James Springs or me, or call us at extension 73000.



~A~J
Paul Brachfeld 

Inspector General 



cc: NH (M. Morphy)




                                      4

·.


                                                                                      Attachment A


                                SUPPLEMENTAL INFORMATION

                           Search Engine Criteria Areas and Weights
                  Used by LM to Evaluate Each Search Engine Product Analyzed


           Criteria                              Description                             Weighting
                                                                                           Factor
       Cost                The rough order of magnitude purchase           cost  for  a  .075
                          component or system and whatever maintenance costs are
                          required.
       Performance        Refers to the ability of the product to meet the defined .050
                          performance objectives.
       Vendor             Characterizes the SIze, history, responsIveness, and .025
       Viability          dependability of the vendor.
       Interoperabili ty Refers to how well the product integrates with our current .125
                          system.
       Standards          Refers to how well the product supports the required .105
       Compliance         software standards.
       Execution and Identifies the monitoring and event management. capabilities .125
       Monitoring         of the system.
       Scalability       Refers to the time and cost to provide additional capacity .075
                         and the capability to support clustering.
      Functionality      Identifies the specific search features required.              .320
      Security           Identifies the security features of the product how well they .050
                         support industry standards for information assurance.
      Usability          Refers to the quality of the product's graphical user .025
                         interface.
      Implementation An assessment of the technical factors that determine the .025
      Complexity         degree of difficulty to implement a candidate solution.




                                                 5

